No.

3fa

Supreme Court of tfje 3Bmteb States
JORGE ALBERTO MENDOZA,
Petitioner,
vs.
UBER TECHNOLOGIES INC.,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Jorge Alberto Mendoza
15540 Vanowen Street
Apt. 113
Van Nuys, CA 91406

RECEIVED
NOV 1 0 2020
s

1

QUESTION PRESENTED
Whether Constitutional Due Process can be part of
Arbitration Jurisdiction.

11

PARTIES TO THE PROCEEDINGS
Petitioner Jorge Alberto Mendoza was the plaintiff
in the district court proceedings and appellant in the
court of appeals proceedings. Respondent Uber Tech­
nologies Inc. was the defendant in the district court
proceedings and appellee in the court of appeals pro­
ceedings.
RELATED CASES
Jorge Mendoza v Uber Technologies INC. N CV 199741-FMD (JRP) US Central District Court of California.Judgment entered Nov 13,2019.
Jorge Mendoza v Uber Technologies INC N CV 199741-FMD (JRP) US Central District Court of Califor­
nia. Judgment entered May 4 2020
Jorge Mendoza v Uber Technologies INC. N 20-55567
US Court of Appeals for the Ninth Circuit. Judgment
entered May 22, 2020.
Jorge Mendoza v Uber Technologies INC N 20-55567
US Court of Appeals for the Ninth Circuit. Judgment
entered June 25, 2020

Ill

TABLE OF CONTENTS
Page
Question Presented................................................

i

Parties to the Proceedings.....................................

n

Related Cases.........................................................

n

Table of Contents....................................................

in

Table of Authorities................................................

v

Petition for Writ of Certiorari................................

1

Opinions Below.......................................................

1

Jurisdiction..............................................................

1

Constitutional Provision Involved............................

2

United States Constitution Amendment XIV......

2

Introduction and Statement of the Case.............

2

Reasons for Granting the Writ.............................

5

I. The Ninth Circuit Court should have
taken this Appeal because it is a Constitu­
tional case. The defendant went against
the 14th Amendment of the Constitution,
to be compared with the case of Dees v
Billy which is a medical case......................
II. The Ninth Circuit Court should not only
base its judgments in precedent similar
cases based in not final orders from lower
courts but also analyze if it is a Constitu­
tional Case in which Arbitration is not
competent even though 28 U.S.C. § 1291
mandates that and have its exceptions....

5

7

IV

TABLE OF CONTENTS - Continued
Page
III.

The Central District Court did not focus
on the main purpose of the complaint
which was the violation of the 14th
Amendment of the Constitution; rather
they focused on the motion to compel pre­
sented by the defendant.............................
8
IV. Although is something legal, external rec­
ommendations to the judge for part of the
defendant’s should not be allowed because
they manipulate and interfere with the
good reasoning of the judge. In this case
the Magistrate Jean Rosenbluth influ­
enced the judge Fernando Olguin from the
Central District of California in making
the decision to go to Arbitration................
9
Conclusion
10
Appendix
Order, United States Court of Appeals for the
Ninth Circuit (June 25, 2020).......................... App. 1
Order Accepting Findings and Recommenda­
tions of U.S. Magistrate Judge, United States
District Court for the Central District of Cali­
fornia (May 4, 2020)......................................... App. 2
Report and Recommendation of U.S. Magistrate
Judge, United States District Court for the Cen­
tral District of California (March 25,2020)...... App. 5
Complaint, United States District Court for the
Central District of California
App. 16

V

TABLE OF AUTHORITIES
Page
Cases
Dees v Bill 394 F 3d 1290 (9th Circuit 2005)

1

Constitutional Provisions
U.S. Const. Amend. XIV......

2,3,8

Statutes
28 U.S.C. § 1254(1)

1

28 U.S.C. § 1291....

1,7

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Jorge Alberto Mendoza respectfully pe­
titions this court for Writ of Certiorari to review the
judgment of the United States Court of Appeals for the
Ninth Circuit in this case.

OPINIONS BELOW
The decision by the Ninth Circuit California Court
of Appeals denying petitioner Jorge Alberto Mendoza
direct appeal is reported as 28 U.S.C. § 1291 Dees v
Bill 394 F 3d 1290,1294 (9th Circuit 2005). The Ninth
Circuit denial, Central District Court adopting recom­
mendation, Magistrate recommendation, and Com­
plaint are in the Appendix Documents.

JURISDICTION
Mr. Mendoza’s petition for hearing to the Ninth
Circuit Court of Appeals was denied on 06-25-2020.
Mr. Mendoza invokes this Court’s jurisdiction under 28
U.S.C. § 1254(1). Having timely filed this petition for a
Writ of Certiorari within ninety days (plus 60 days
grace period) of the California Court of Appeals judg­
ment.

2

CONSTITUTIONAL PROVISION INVOLVED
United States Constitution, Amendment XIV
“All persons born or naturalized in the United
States and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the
laws”

INTRODUCTION AND
STATEMENT OF THE CASE
Defendant deprived Plaintiff of his only property
which was his contract with defendant, without any
further investigation or minimum reasonable compul­
sory process. As we know a fundamental shift in the
concept of property occurred with the recognition of
society’s growing economic reliance on government
benefits, employment, and contracts. Defendant termi­
nated the agreement and deactivated the account leav­
ing Plaintiff out of the Uber system without hearing or
at least reviewing the evidence Plaintiff had offered.
This case presents the question of whether the
concept of “Due Process” standard of the XIV amend­
ment rule is satisfied when an issue of “Due Process”

3
is sent to Arbitration by lower courts to be solved by a
private Jurisdiction. (Arbitrators)
Why this private company Uber needs to comply
with the XIV amendment (Due Process)?
Defendant is not immune to the application of the
Constitution, specifically to Due Process because they
are State regulated organizations for Public Safety;
furthermore, they are under Judicial Intervention in
regards to Public Safety. Defendant is a California
State regulated for public safety.
Public Safety is a public policy to protect passen­
gers from danger. In the case of Transportation Net­
work Company (TNC) as Uber and Lift, etc. they are
strictly regulated by the State delegating on them the
power of punishing drivers that are Driving Under
the Influence, becoming in this respect state agency to
public safety.
They exercise their power by making policing de­
cisions enforcing public safety rules, and punishing
drivers that drive under the influence of drugs or al­
cohol. That procedure is called Zero Tolerance and is a
State regulated process that delegates on TNC compa­
nies power to enforce rules and protect public not only
to apply this Zero Tolerance to drivers but also to the
persons or person who does the report by asking them
for proof or evidence about the incident. The State De­
cision 13-09-045 Rulemaking 12-12-011 enacted a le­
gal procedure for that. The State has delegated on TNC
companies the power to enforce public safety rules (see
Decision 13-09-045 September 19, 2013).

4
In this respect Defendant did not follow the legal
procedure and did not respect due process since De­
fendant applied a sanction on Plaintiff acting under
the color of the law, because they wanted to exercise
their delegated power from Zero Tolerance state regu­
lation; however, they exceeded that power delegated by
the State.
In order for an organization to be seen as govern­
mental, private companies must be a State actor,
meaning an organization that exercises “Powers tradi­
tionally exclusive to the State” defined from the case
Jackson v Metropolitan Edison Co. and the action must
have been originally and solely performed by the gov­
ernment (Rendell-Baker v Kohn and Evans v Newton).
As a state actor Defendant needs to observe Due
Process established in the State regulation. In this
case, Defendant deprived Plaintiff of his contract
which is considered property without observing Due
Process.
Defendant is under Judicial Intervention in re­
gards to a Public Safety by the United States Northern
District of California.
A settlement has been reached in two class action
lawsuits filed against Uber Technologies Inc., by driv­
ers who have used the Uber App in California and
Massachusetts. Under the settlement, Uber has agreed
to create a Settlement Fund and modify certain busi­
ness practices, as described below. The United States
Court for the Northern District of California author­
ized a notice published (http://www.uberlitigation.com).

5

Uber will pay $ 20,000,000 into a Settlement Fund
that will be paid out to drivers who are Settlement
Class Members. Uber also will modify certain business
practices as described fully in the notice package. Spe­
cifically, Uber agrees to the following:
Comprehensive written deactivation policy.
Formal appeals process for certain deactivation
decisions.
Quality courses for drivers.
A petition from Uber for a Writ of Certiorari was
filed in response to the Ninth Circuit affirmance of the
order approving the Settlement. The United States Su­
preme Court has now denied the petition, and Settle­
ment is now final.

REASONS FOR GRANTING THE WRIT
I.

The Ninth Circuit Court should have taken
this Appeal because it is a Constitutional
case. The defendant went against the 14th
Amendment of the Constitution, to be com­
pared with the case of Dees v Billy which
is a medical case.

The Ninth Circuit Court should have taken this
Appeal because it is a Constitutional Case not the
same as the case of Dees v Billy which is a medical case
and does not involve any violation of the Constitution.
Also what I noticed a little strange is that the Ninth
Circuit on May 28, 2020 filed a Time Schedule Order

6

in which they gave me and schedule to do the opening
brief and excerpts of records scheduled to be presented
by July 21, 2020 and after that on June 25, 2020 they
filed the order to dismiss the case. Since the beginning
also the Central District Court didn’t take the case as
a Constitutional Case. At first before the defendant
presented the motion to Compel the judge ordered a
Discovery in which explained all the procedures we
had to take in order to clarify everything about the
false accusation of driving under the influence. The
defendant did not give me the chance to present the
evidence I have and the Discovery was the opportunity
to cross information also for the defendant to present
its investigation and proof if the person who accused
me had a police report or called 911 to report the inci­
dent. At that point I was optimistic that the judge was
doing his job but when the court received the Motion
to Compel from the defendant, the judge cancelled the
order for the Discovery. After that the case was only
based on the motion to compel to go to Arbitration and
took many time because the defendant presented the
Technology Agreement I signed with them in which
they affirm that is not an Employment Contract in
which it explains that when I had any problem or issue
with them I had to go to Arbitration but they don’t even
mention in its Agreement the constitutional rights
that has any citizen independently if you had signed
an Agreement or not mainly when they know that
they are part of the State of California because in
2013 the State of California delegated all the Trans­
portation Network Company (TNC) including Uber
to collaborate with the State with public safety which

7
includes driving under the influence and gave them
guidelines to follow on how to perform their job in­
cluding further investigation. This further step even­
tually they have to present in the discovery of what
further investigation they made in my case and pre­
sent proof or evidence to support their defamation
against me. This kind of defamation they do to thou­
sands of drivers and because they don’t have time or
money or the information needed to sue them, they
don’t proceed or they go to Arbitration and the Arbi­
trators usually are in favor of the defendant and
mainly because Arbitration Jurisdiction should not be
part of Constitutional Due Process, this is a job of a
Federal Judge.
II.

The Ninth Circuit Court should not only
hase its judgments in precedent similar
cases based in not final orders from lower
courts but also analyze if it is a Constitu­
tional Case in which Arbitration is not
competent even though 28 U.S.C. § 1291
mandates that and have its exceptions.

The confusion I would say has come since the Cen­
tral District of California because in its order to go to
Arbitration which is not final they mention as a prece­
dent case Dees v Billy which is not a Constitutional
case that is why they went to Arbitration, conse­
quently, the Ninth Circuit Court based on that order
which includes the case mentioned before and the law
of 28 U.S.C. § 1291 took the decision to Dismiss my Ap­
peal for lack of jurisdiction. The Ninth Circuit should

8
have evaluated the case since the beginning to look at
the complaint I made to form a more informed decision
and not only based in the final order from the lower
court to go to Arbitration being this a Constitutional
case that has to be seen by a Federal Judge not Arbi­
tration Jurisdiction.
III. The Central District Court did not focus on
the main purpose of the complaint which
was the violation of the 14th Amendment
of the Constitution; rather they focused on
the motion to compel presented by the de­
fendant.
The Central District Court once they received the
motion to compel by the defendant they forgot that this
is a Constitutional case because they went against the
14th Amendment of the Constitution and in the effort
to make me go to Arbitration the defendant presented
the Technology Agreement I signed. In order to fight
against Arbitration I file a resource in which I ex­
plained that according to a California law and Federal
law that drivers who are part of Transportation Net­
work Companies (TNC) who take passengers from the
Los Angeles International Airport or any International
Airport are doing Interstate Commerce; consequently,
these drivers were exempt to go to Arbitration and
this resource I filed took most of the part of the case
discussing and arguing back and forth if the drivers do
Interstate Commerce or not rather than focusing on
the main point of the sue. In my complaint I am not
asking mainly to be considered as an employee or

9
want my account reactivated I just let the judge com­
pensate me according to law or his/her judgment, I am
asking for Justice because if we allow the defendant to
continue doing these false accusations without any ev­
idence or proof they are not only going to continue do­
ing these false accusations but also they are going to
prompt other passengers or riders to do more defama­
tions against drivers because they know that it will be
very difficult to be discovered because the defendant
probably assure them that they are protected because
we signed an Agreement to go to Arbitration, so they
become accomplices that’s why I would like the discov­
ery to know who was the person or persons who did
this defamation against me.
IV. Although is something legal, external rec­
ommendations to the judge for part of the
defendant’s should not be allowed because
they manipulate and interfere with the
good reasoning of the judge. In this case
the Magistrate Jean Rosenbluth influ­
enced the judge Fernando Olguin from the
Central District of California in making
the decision to go to Arbitration.
The Recommendation from the Magistrate Jean
Rosenbluth has influenced the decision made by the
Central District Court of California because is mainly
based in the Agreement I signed with the defendant to
go to Arbitration and the fact that I did not Opt out
of the agreement; furthermore, he mentioned that I
am not engaged in Interstate Commerce; so I am not

10
exempt to go to Arbitration. I understand that all of his
allegations are true but he did not mention that my
case is a Constitutional case, which is the violation of
the 14th Amendment of the Constitution that the de­
fendant not even mention in the Agreement being part
of the State of California and mainly because Arbitra­
tion Jurisdiction is not part of Constitutional Due Pro­
cess. As I mentioned before I had the recourse to fight
against Arbitration stating that I was engaged in In­
terstate commerce because I took passengers from Los
Angeles International Airport but ultimately this is
not the case none of the parties including the judge
from the Central District of California not even men­
tioned or realized that this is not the case to go to ar­
bitration because this case since the beginning should
have been focused on the Civil Rights section 1983 that
made the 14th Amendment of the Constitution to be
enforced because the defendant since 2013 is part of the
State of California and is no longer immune to be sued
for violations of the Amendments of the Constitution,
and it seems that the defendant does not want us to
know that. They mention everything in the agreement
except that they act as an arm of the State of California.

CONCLUSION
For the forgoing reasons, the Court should grant a
Writ of Certiorari.
Respectfully Submitted
Jorge Alberto Mendoza

